                            Office of Inspector General
                           Corporation for National and
                                    Community Service




             AUDIT OF THE
    CORPORATION FOR NATIONAL AND
         COMMUNITY SERVICE’S
FISCAL YEAR 2011 FINANCIAL STATEMENTS

          Audit Report Number 12-01




                       Prepared by:

                   Kearney & Company
               1701 Duke Street, Suite 500
                Alexandria, Virginia 22314




 This report was issued to Corporation management on November 15, 2011.
 Under the laws and regulations governing audit follow up, the Corporation is to
 make final management decisions on the report’s findings and
 recommendations no later than May 16, 2012, and complete its corrective
 actions by November 15, 2012. Consequently, the reported findings do not
 necessarily represent the final resolution of the issues presented.
                                      O/ficc of Inspcctor Gcnnal


                                    NATIOONAL&
                                    COMMUNITY
                                    SERVICE ~.,.....
                                          November 15, 2011


TO:


FROM:


SUBJECT:         Audit of the Corporation for National and Community Service's
                 Fiscal Year 2011 Financial Statements, OIG Audit Report 12-01

We contracted with the independent certified public accounting firm of Kearney & Company
(Kearney) to audit the consolidated financial statements of the Corporation for National and
Community Service (Corporation) as of September 30, 2011 and 2010, and for the years then
ended. The contract required that the audit be performed in accordance with generally
accepted government auditing standards.

In its audit, Kearney found

      •   The financial statements were fairly presented, in all material respects, in conformity with
          generally accepted accounting principles;

      •   One Material Weakness in the Corporation's internal controls;

      •   No instances of noncompliance with relevant laws and regulations.

Kearney is responsible for the attached auditor's report, dated November 15, 2011, and the
conclusions expressed therein. The Office of Inspector General does not express an opinion on
the Corporation's financial statements or Kearney's conclusions about the effectiveness of
internal controls or compliance with laws and regulations .

Attachment

cc:       James Siegal, Chief of Staff
          Kim Mansaray, Acting Chief Operating Officer
          William Anderson, Chief Financial Officer
          Idara Nickelson, Chief of Program Operations
          Valerie Green, General Counsel
          Rocco Gaudio, Deputy CFO for Grants and Field Financial Management
          Philip Clark, Chief Information Officer
          David Zavada, Engagement Partner, Kearney & Company




                      1201 New York Avenue, NW  *          *
                                                   Suite 830  Washington, DC 20525
                         202-606-9390  *Hotline: 800-452-8210* www.cncsoig.gov

                           Senior Corps * AmeriCorps * Learn and Serve America
                                                          1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                          PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




                         REPORT OF INDEPENDENT AUDITORS

To the Board of Directors and Inspector General of the Corporation for National and Community
Service


We have audited the accompanying consolidated statements of financial position of the
Corporation for National and Community Service (the Corporation) as of September 30, 2011
and 2010, and the related consolidated statements of operations and changes in net position, the
consolidated statements of cash flows, and the combined statements of budgetary resources
(SBR) (hereinafter referred to as the “financial statements”) for the years then ended. These
financial statements are the responsibility of the Corporation’s management. Our responsibility
is to express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States; and Office of Management
and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended. Those standards require that we plan and perform the audits to obtain reasonable
assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the
financial statements. An audit also includes assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

A 2004 Executive Order, entitled “National and Community Service Programs” (E.O. 13331),
requires a statement of assurance in the Corporation’s Management Representation Letter by the
Chief Executive Officer and Chief Financial Officer, that its financial statements, including the
SBR, are accurate and reliable. The Corporation has interpreted this requirement to include
presenting the SBR as a principal financial statement. The Corporation’s SBR is prepared in
accordance with accounting principles generally accepted in the United States of America.

As discussed in the Independent Auditor’s Report on Internal Control and Note 18,
Restatements, to the fiscal year (FY) 2011 financial statements, the Corporation restated its FY
2010 financial statements to correct errors identified during the FY 2011 financial statement
audit related to an overstatement of its accrued grant expense and the effect of the overstatement
on the ending balances reported for advances, grants payable, and other related accounts.
Accordingly, our November 15, 2010 audit report on the FY 2010 consolidated statement of
financial position, the consolidated statement of operations and changes in net position, and the
consolidated statement of cash flows, is replaced by the report on the restated financial
statements, as presented herein.
In our opinion, the financial statements referred to above, including the accompanying notes,
present fairly, in all material respects, the financial position of the Corporation as of September
30, 2011 and 2010, and its net cost of operations, changes in net position, cash flows, and
changes in budgetary resources for the years then ended, in conformity with accounting
principles generally accepted in the United States of America.

Our audits were conducted for the purpose of forming an opinion on the basic financial
statements taken as a whole. The accompanying “Management’s Discussion and Analysis” and
“Other Accompanying Information” are not required parts of the basic financial statements.
Rather, they are considered supplementary information required by OMB Circular A-136,
Financial Reporting Requirements. This supplementary information is the responsibility of the
Corporation’s management. We have applied certain limited procedures, which consisted
principally of inquiries of management regarding the methods of measurement and presentation
of the supplementary information and comparing this information for consistency with the
financial statements; however, such information was not subjected to the procedures applied in
our audits of the basic financial statements. Accordingly, we do not express an opinion on this
information.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, as amended,
we have also issued reports, dated November 15, 2011, on our consideration of the Corporation’s
internal control over financial reporting and compliance, and on our tests of the Corporation’s
compliance with certain provisions of laws, regulations, and other matters for the year ended
September 30, 2011. The purpose of those reports is to describe the scope of our testing of
internal control over financial reporting and compliance as well as the results of that testing, and
not to provide an opinion on the internal control over financial reporting or on compliance and
other matters. Those reports are an integral part of an audit performed in accordance with
Government Auditing Standards and OMB Bulletin No. 07-04, as amended, and should be
considered in assessing the results of our audits.




Alexandria, Virginia
November 15, 2011
        Corporation for
 National & Community Service
    Fiscal Year 2011 and 2010
Consolidated Financial Statements
CONSOLIDATED FINANCIAL STATEMENTS
CNCS' consolidated financial statements report its financial position, results of operations, cash
flows, and budgetary resources, as required by the Government Corporation Control Act (Act)
and Executive Order 13331, National and Community Service Programs. The Government
Corporation Control Act requires that government corporations submit an annual report including
the corporation's financial statements to the Congress. As specified in the Act, the principal
financial statements of the Corporation are the:
D       Statement of Financial Position (balance sheet), which reports the status ofCNCS assets,
        liabilities, and net position;

[I      Statement of Operations and Changes in Net Position (income statement), which reports
        CNCS' revenues and expenses for the year and the changes in net position that occurred
        during the year; and

o       Statement of Cash Flows, which shows how changes in CNCS' financial position and
        results affected its cash (Fund Balance with Treasury), and breaks the analysis down
        according to operating, investing, and financing activities.

In addition, under the requirements of Executive Order 13331, CNCS prepares a Statement of
Budgetary Resources (SBR) as a principal financial statement. The SBR provides information
about the budgetary resources made available to the Corporation as well as the status of those
resources at the end of the fiscal year.
The Corporation's financial statements present comparative information for fiscal 2011 and 2010.
For fiscal 2011, CNCS' financial statements, for the twelfth consecutive year, received an
unqualified opinion. This opinion recognizes that CNCS' financial statements are fairly
presented, in all material respects, and in conformity with generally accepted accounting
principles. CNCS has restated its audited FY 2010 Consolidated Statements of Financial
Position, Operations and Changes in Net Position, and Cash Flows to correct an overstatement of
its estimated accrued grant expense (see note 18). The restatements had no effect on the FY 2010
Combined Statement of Budgetary Resources.

Limitations of the Financial Statements
The principal financial statements have been prepared in compliance with the reporting
requirements described above. CNCS' financial statements published herein are in addition to the
financial reports it uses to monitor and control budgetary resources which are prepared from the
same books and records. The statements should be read with the realization that they are for a
component of the u.S. Government, a sovereign entity. One implication of this is that liabilities
cannot be liquidated without legislation that provides the resources to do so.
                    Corporation for National and Community Service
                     Consolidated Statements of Financial Position
                                   as of September 30
                                            (dollars in thousands)

                                                                                                  Restated
ASSETS                                                                        2011                 2010
Fund Balance with Treasury (Note 2)                                      $      942,870       $      998,408
Trust Investments and Related Receivables (Note 3)                              605,661              565,195
Advances to Others (Note 18)                                                     64,942               82,640
Accounts Receivable, Net (Note 4)                                                 7,607                3,783
Property and Equipment, Net (Note 5)                                                 926               1,129
  Total Assets                                                           $    1,622,006       $    1,651,155



LIABILITIES
Trust Service Award Liability (Note 6)                                   $      410,261       $      379,878
Grants Payable (Note 18)                                                        116,261              125,678
Accounts Payable                                                                  2,637                2,875
Actuarial FECA Liability (Note 8)                                                 9,092               12,092
Accrued Annual Leave                                                              4,121                4,163
Other Liabilities                                                                10,415               13,853
  Total Liabilities                                                             552,787              538,539


Contingencies (Note 14)

NET POSITION (Notes 9 & 18)                                                   1,069,219            1,112,616


Total Liabilities and Net Position                                       $    1,622,006       $    1,651,155




                 The accompanying notes are an integral part of these financial statements.
                  Corporation for National and Community Service
          Consolidated Statements of Operations and Changes in Net Position
                         for the Periods Ended September 30
                                             (dollars in thousands)
                                                                                                   Restated
REVENUE                                                                          2011               2010
Appropriated Capital Used (Note 18)                                        $      883,872      $      876,568
Appropriations Received by the National Service Trust (Note 10)                   201,200             199,659
Interest                                                                             4,669              7,288
Revenue from Services Provided                                                      12,049             11,274
Other                                                                               11,839                 990
   Total Revenue                                                                1,113,629           1,095,779



EXPENSES
AmeriCorps                                                                        807,960             808,662
SeniorCorps                                                                       237,348             235,814
Learn and Serve America                                                             33,261             37,539
Innovation, Demonstration and Assistance Activities                                 11A64              17,888
Office of the Inspector General                                                      8,001              7,292
   Total Expenses (Notes 11 & 18)                                               1,098,034           1,107,195


Net of Revenue Over Expenses                                               $       15,595      $      (11,416)


NET POSITION
Net of Revenue over Expenses                                               $        15,595     $      (11,416)
Increase/(Oecrease) in Unexpended
  Appropriations, Net (Notes 13 & 18)                                             (58,992)             44,124
Increase/(Decrease) in Net Position, Net (Note 18)                                (43,397)             32,708
Net Position, Beginning Balance                                                  U12,616            t079,908


   Net Position, Ending Balance (Notes 9 & 18)                             $    1,069,219      $    1,112,616




                  The accompanying notes are an integral part of these financial statements.
                    Corporation for National and Community Service
                        Consolidated Statements of Cash Flows
                          for the Periods Ended September 30
                                            (dollars in thousands)
                                                                                                  Restated
CASH FLOWS FROM OPERATING ACTIVITIES                                          2011                  2010
Net of Revenue over Expenses                                              $      15,595       $      (11,416)


Adjustments Affecting Cash Flow:
  Depreciation, Amortization, and Loss on Disposition of Assets                      203                   580
  Amortization of Premium/Discount on Investments                                  l,137               4,045
  Appropriated Capital Used (Note 18)                                          (883,872)            (876,568)
  Appropriations Received in Trust                                             (201,200)            (199,659)
  Decrease/(Increase) in Accounts Receivable                                      (3,824)              (1,020)
  Decrease/(Increase) in Interest Receivable                                         299               2,363
  Decrease/(Increase) in Advances to Others (Note 18)                            17,698              (15,119)
  Increase/(Decrease) in Accounts Payable and Other Liabilities                   (3,676)              (2,091)
  Increase/(Decrease) in FECA and Annual Leave Liabilities                        (3,042)              1,770
  Increase/(Decrease) in Trust Liability                                         30,383               55,811
  Increase/(Decrease) in Grants Payable (Note 18)                                 (9,417)             20,594
     Total Adjustments                                                        (1,055,311)          (1,009,294)
Net Cash ProvidedJ(Used) by Operating Activities                              (1,039,716)          (1,020,710)


CASH FLOWS FROM INVESTING ACTIVITIES
Sales of Securities                                                             749,891              905,140
Purchase of Securities                                                         ~791/793)            (956,905)
Net Cash ProvidedJ(Used) in Investing Activities                                 (41,902)             (51,765)


CASH FLOWS FROM FINANCING ACTIVITIES
Appropriations Received, Net of Trust                                         1,077,733            1,149,721
Rescissions and Cancellations                                                    (51,653)             (29,370)
Net Cash Provided by Financing Activities                                     1,026,080            1,120,351


Net Increase/(Decrease) in Fund Balance with Treasury                            (55,538)             47,876


Fund Balance with Treasury, Beginning                                           998,408              950,532


Fund Balance with Treasury, Ending                                        $     942,870       $      998,408


                 The accompanying notes are an integral part of these financial statements.
                    Corporation for National and Community Service
                     Combined Statements of Budgetary Resources
                          for the Periods Ended September 30
                                           (dollars in thousands)


BUDGETARY RESOURCES                                                          2011                2010
Unobligated balance, brought forward, October 1                          $    155,307        $    187,608
Recoveries of prior year unpaid obligations                                    53,606              32,951
Budget authority:
 Appropriation                                                               1,286,080           1,366,207
 Spending authority from offsetting collections:
     Collected                                                                  12,116              11,435
     Change in receivables from Federal sources                                       6
 Change in unfilled customer orders:
     Advance received                                                               53
     Without advance from Federal sources                                          534
 Total budget authority                                                      1,298,789           1,377,642
Permanently not available                                                      (51,653)            {29,370)
   Total budgetary resources                                             $   1,456,049       $   1,568,831



STATUS OF BUDGETARY RESOURCES
Obligations incurred
 Direct                                                                      1,288,240       $   1,403,065
 Reimbursable                                                                   11,081       $      10,459
 Subtotal                                                                    1,299,321           1,413,524
Unobligated balance
 Apportioned                                                                    70,623              50,497
 Unobligated balance not available                                              86,105             104,810
   Total status of budgetary resources                                   $   1,456,049       $   1,568,831


                                                                                             (Continued)




                The accompanying notes are an integral part of these financial statements.
                     Corporation for National and Community Service
                      Combined Statements of Budgetary Resources
                           for the Periods Ended September 30
                                             (dollars in thousands)


(Continued)
                                                                               2011                2010
CHANGE IN OBLIGATED BALANCE
Obligated balance, net:
 Unpaid obligations, brought forward, October 1                           $    1,400,061       $   1,265,772
 Uncollected customer payments from Federal sources,
   brought forward, October 1
      Total unpaid obligated balance, net                                      1,400,061           1,265,772


Obligations incurred, net                                                      1,299,321           1,413,524
Gross outlays                                                                  (1,257,893)         (1,246,284)
Recoveries of prior year unpaid obligations, actual                               (53,606)           (32,951)
Change in uncollected customer payments from Federal sources                         (539)
     Total unpaid obligated balance, net, end of period                   $    1,387,344       $   1,400,061
Obligated balance, net, end of period:
 Unpaid obligations                                                        $   1,387,883           t400,061
 Uncollected customer payments from Federal sources                                 (539)
     Total unpaid obligated balance, net, end of period                   $    1,387,344       $   1,400,061


NET OUTLAYS
Gross outlays                                                              $   1,257,893           1,246,284
Offsetting collections                                                           (12,169)            (11,436)
Distributed offsetting receipts                                                 (202,076)           (200,822)
      Net outlays                                                         $    1,043,648       $   1,034,026




                  The accompanying notes are an integral part of these financial statements.
NOTE 1 - SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
    A. REPORTING ENTITY
Irhe Corporation for National and Community Service (Corporation) was created by the National and
!Community Service Trust Act of 1993 (Public Law 103-82). The Corporation's mission is to improve
lives, strengthen communities, and foster civic engagement through service and volunteering. To meet
its mission, the Corporation provides grants and other assistance to States, local municipalities, and not-
for-profit organizations to help communities meet critical challenges in the areas of education, healthy
futures, environmental stewardship, economic opportunity, disaster services, and assisting veterans and
military families through volunteer service. The Corporation's major programs are:

~e,,/or Corps. The Senior Corps offers a network of programs that tap the rich experience, skills and
 alents of older citizens to meet community challenges. Senior Corps comprises the Retired and Senior
1V0lunteer Program, the Foster Grandparent Program, and the Senior Companion Programs.

IrfmeriCorps. AmeriCorps provides opportunities for Americans to make an ongoing, intensive
commitment to service through the following programs:
    o    State, National, Tribes, and Territories (State and National) offers grants supporting a broad
         range of local service programs that engage thousands of Americans in intensive service to mee
         critical community needs;
    o    Volunteers in Service to America (VISTA) helps community organizations and public agencies
         create and expand programs that build capacity and ultimately bring low-income individuals
         and communities out of poverty; and
    o    National Civilian Community Corps (NCCC) strengthens communities while developing
         leaders through direct, team-based national and community service.

Lea", and Serve America. Learn and Serve America supports programs in schools, colleges, and
community-based organizations that link community service to educational objectives.
The Corporation for the most part administered its programs in fiscal year 2011 from the following trust,
gift and appropriated funds:

Trust and Gift Funds:
    o    National Service Trust (the Trust), from which the Corporation provided education awards and
         interest forbearance for volunteers under the AmeriCorps State and National; NCCC; and
         VISTA programs.
    o    Gifts and Contributions, into which the Corporation deposited gifts and contributions from
         individuals and organizations for use in furthering the Corporation's goals.

Appropriated Funds:
    o    Operating Expenses, from which the Corporation funded the Senior Corps, AmeriCorps, Learn
         and Serve America and other program activity.
    o    Salaries and Expenses, from which the Corporation funded its general administrative expenses.
    o    Office ofInspector General, from which the Corporation funded the expenses of the OlG.

    o VISTA Advance Payment Revolving Fund, from which the Corporation paid the living
    allowances for VISTA members enrolled under cost share agreements with sponsoring
    organizations. The Corporation is reimbursed for these costs by the sponsoring organization.
    Despite the account title, the VISTA Advance Payment Revolving Fund is not a revolving fund, but
    rather a general fund expenditure account.
On February 17,2009, the President signed into law the American Recovery and Reinvestment Act of
2009 (Recovery Act). The Recovery Act included funding for the use of the Corporation to support an
expansion of the AmeriCorps State and National and VISTA programs. As a result of the passage of the
Recovery Act, three additional appropriated funds were established:

    o    Operating Expenses, Recovery Act, from which the Corporation funded the increased
         AmeriCorps State and National and VISTA membership as a result of the Recovery Act.
    o    Salaries and Expenses, Recovery Act, which funded the Corporation's expenses to improve IT
         systems and administer the increased AmeriCorps State and National and VISTA membership.
    o    Office of Inspector General, Recovery Act, from which the Corporation funded the expenses of
         the OIG's Recovery Act oversight responsibilities.


    ~    BASISOFACCOUNTING
[rhe accompanying financial Statements include all funds administered by the Corporation, as delineated
in Note lA -'Reporting Entity. They include the Corporation's activities related to providing grants and
pther assistance to eligible states, local governments, and not-for-profit organizations as well as
~ducation awards to eligible national service participants. All significant inter-entity transactions and
balances are eliminated in consolidation.


    C.   FINANCIAL STATEMENT PRESENTATION AND CONSOLIDATION
         POLICY
;rhe accompanying financial statements report the Corporation's financial position, results of operations,
and cash flows, as required by the Government Corporation Control Act (GCCA). As required by
GCCA the principal financial statements of the Corporation are the:
    o    Statement of Financial Position, which reports the status of Corporation assets, liabilities, and
         net position;
    o    Statement of Operations and Changes in Net Position, which reports the Corporation's revenues
         and expenses for the year and the changes in net position that occurred during the year; and
    o    Statement of Cash Flows, which shows how changes in the Corporation's fmancial position and
         results affected its cash (Fund Balance with Treasury), and breaks the analysis down according
         to operating, investing, and financing activities.

The financial statements are presented in accordance with the accounting principles generally accepted
in the United States of America (GAAP), as applicable to Federal government corporations. The
Federal Accounting Standards Advisory Board (FASAB) is the standard setting body for the Federal
government. Statement of Federal Financial Accounting Standards Number 34 (SFFAS 34) provides
 hat fmancial statements prepared by certain government corporations in conformity with the accounting
standards issued by the Financial Accounting Standards Board (F ASB) are regarded as being in
conformity with GAAP. As provided by SFFAS 34, where there is no standard issued by FASB
applicable to the Federal corporation the financial statements are presented in accordance with the
accounting standards issued by FASAB.

rn addition, under Executive Order 13331, National and Community Service Programs, the Corporation
must prepare a Combined Statement of Budgetary Resources as a principal statement. The
accompany ing Combined Statements of Budgetary Resources have been prepared in accordance with
GAAP, as prescribed by FASAB.

The Corporation's consolidation policy requires the consolidation of all funds administered by the
Corporation, as delineated in Note lA - Reporting Entity.
    D. BUDGETS AND BUDGETARY ACCOUNTING
Irhe activities of the Corporation are primarily funded through the annual Departments of Labor, Health
~nd Human Services, Education and Related Agencies Appropriation Act. The Corporation's accounting
~lructure reflects both accrual and budgetary accounting transactions. Under the accrual method of
accounting, revenues are recognized when earned and expenses are recognized when incurred, without
regard to the actual collection or payment of cash. Federal budgetary accounting recognizes the
obI igation of appropriations and other funds ,upon the establishment of a properly documented legal
liability, which, in many cases, is different from the recording of an accrual-based transaction. The
recognition of budgetary accounting transactions is essential for compliance with legal controls over the
use of Federal funds.


    E. ASSET AND LIABILITY VALUATION
The Corporation values its investments at carrying value and discloses fair value. As of September 30,
20 II, the carrying amounts of Fund Balance with Treasury, Accounts Receivable, Advances to Others,
Accrued Interest Receivable, Accounts Payable and Other Liabilities approximate their fair value.


    F. FUND BALANCE WITH TREASURY
The Corporation considers Fund Balance with Treasury (FBWT) to represent cash and cash equivalents.
It is the Corporation's cash accounts with the Department of the Treasury (the Treasury). The Treasury
processes cash receipts and disbursements on behalf of the Corporation and the Corporation's accounting
records are reconciled with those of the Treasury on a regular basis. The Corporation's FBWT includes
all of its appropriated and trust funds.
The FBWT maintained in the National Service Trust is restricted to specific purposes, such as paying
~ervice awards earned by eligible participants, and are not available for use in the current operations of
 he Corporation. In addition, the majority of the funds received from individuals and organizations for
~eposit in the Gifts and Contributions fund are restricted for particular uses, such as service projects.


    G. INVESTMENTS AND RELATED RECEIVABLES
By law, the Corporation may invest the funds of the National Service Trust in interest-bearing Treasury
securities guaranteed by the United States as to principal and interest. These Treasury securities are
referred to as "market-based," since they mirror actual Treasury securities sold on the open market.
Irhey consist of Treasury notes, bonds, bills and one-day certificates.
ISince they are expected to be held-to-maturity, the Corporation's investments are valued at cost and
~djllsted for the amortization of premiums and discounts. The premiums and discounts are recognized as
~djustments to interest income, using the effective interest method. Interest receivable represents
~mounts earned, but not received on investments held at year- end. Prepaid interest is the amount of
 interest earned on a security since the date of its last interest payment up to the date the security is
 purchased by the Corporation. Such interest, ifany, at year-end is included in the interest receivable
 balance.


    H. ADVANCES TO OTHERS
Irhe Corporation advances funds to non-federal entities, primarily in response to grantee drawdown
requests, to facilitate their authorized service activities. The cash payments to grantees, in excess of
~mounts appropriately expended under the terms of the grant agreements, are accounted for as advances.
IAt the end of the fiscal year, the total amount advanced to grantees is compared with the total
~orporation-funded amount of grant expenses properly incurred by the grantees. Grantee expenses are
~ete[mined from reports submitted by the grantees. For those grantees with advances exceeding
~xpenses the aggregate difference is reported as the advance account balance.
    I. ACCOUNTS RECEIVABLE
[Accounts receivable represents amounts due to the Corporation primarily under Federal and non-Federal
reimbursable agreements, grantee audit resolution determinations, and outstanding travel advances due
fi'om employees. An allowance for doubtful accounts is established for reporting purposes based on past
p.xperience.


    J. PROPERTY AND EQUIPMENT
Property and Equipment is stated at full cost, including all costs related to acquisition, delivery, and
installation less accumulated depreciation (or amortization). Normal maintenance and repair costs on
~apilalized property and equipment are expensed when incurred. The Corporation's general policy is to
Fapitalize Property and Equipment if the initial acquisition price is $50 thousand or more. Property and
~quipment with an estimated useful life that extends beyond the year of acquisition is capitalized at
historical cost and is depreciated (or amortized) on a straight-line basis over estimated useful lives
ranging from two to 10 years, using the half-year convention.


    K. TRUST SERVICE AWARD LIABILITY
The Trust Service Award Liability represents unpaid earned, and expected to be earned, education
awards and eligible student loan interest forbearance costs, which are expected to be used. These
~mounts relate to participants who have completed service or are currently enrolled in the program and
are expected to earn an award, based on the Corporation's historical experience.


    L. GRANTS PAYABLE
The Corporation awards grants to nonprofit organizations, educational institutions, states, municipalities,
and other external organizations. Grants become budgetary obligations, but not liabilities, at the time
 hey are awarded. Although most grantees request funds prior to incurring expenses, some incur
expenditures prior to initiating a request for disbursement, based on the nature ofthe expenditures. At
 he end of the fiscal year, the Corporation computes and reports an estimate of the amount of
unreimbursed grantee expenses as grants payable. This accrual is based on an analysis of the amounts
actually disbursed to grantees in the third quarter.


    M. ACCOUNTS PAYABLE
The Corporation records as liabilities all amounts that are likely to be paid as a direct result of a
transaction or event that has already occurred. Accounts payable represents amounts due to external
entities for goods and services received by the Corporation, but not paid for at the end of the fiscal year.


    N. ACTUARIAL FECA LIABILITY
The Federal Employees' Compensation Act (FECA) provides income and medical cost protection to
covered Federal civilian employees, NCCC and VISTA members injured on the job, employees who
have incurred a work-related occupational disease, and beneficiaries of employees whose death is
attributable to a job-related injury or occupational disease. Claims incurred for benefits for Corporation
employees and members under FECA are determined and paid by the Department of Labor (DOL) and
later billed to the Corporation. The Corporation's actuarial liability for workers' compensation includes
vosts incurred, but unbilled as of year-end, as calculated by DOL. The Corporation reimburses DOL for
FECA claims out of current appropriations upon receipt of a bill from DOL.
     O. OTHER LIABILITIES
Olher liabilities include amounts owed but not paid at the end of the fiscal year for payroll and benefits
and VISTA stipends. Also included as other liabilities is the amount of claims for benefits for
Corporation employees under FECA that have been paid by DOL and billed to the Corporation but have
not yet been reimbursed to DOL and imputed costs for future retirement and health care benefits as
determined by an Office of Personnel Management calculation.


    P. ACCRUEDANNUALLEAVE
Annual leave is accrued as a liability based on amounts earned but not used as of the fiscal year-end.
Each year, the balance in the accrued annual leave account is adjusted to reflect current year pay rates
and leave balances. Annual leave is funded from current appropriations when used. As unused annual
leave is used in the future, financing will be obtained from appropriations current at that time. Sick
leave and other types of non-vested leave are also expensed when used.


     Q. ADVANCES FROM OTHERS
Advances from others consist of advances from other Federal agencies and the public related to
interagency and cost share agreements into which the Corporation entered to provide services.


    R. NET POSITION
lNet Position represents Net Assets. It is comprised of the Corporation's unexpended appropriations and
its cumulative results of operations. Unexpended appropriations reflect the balance of appropriated
lauthority granted to the Corporation against which no outlays have been made. Cumulative results of
[operations represent the net differences between revenues and expenses from the inception of the
1C0rporation.


    S. REVENUE RECOGNITION
 Appropriated Capital Used The Corporation recognizes its use of appropriated capital as revenue at the
 ime it is expended or accrued to pay program or administrative expenses. Appropriations expended for
property and equipment are recognized as used when the property is purchased. Appropriated capital not
expended within five fiscal years after it became available for obligation is cancelled. Unpaid
obligations recorded against cancelled appropriated capital are paid from currently available
appropriated funds as payments become due. Appropriations received for the Corporation's Trust are
recognized as revenue when received in the Trust Fund. Trust appropriations do not expire with the
passage oftime and are retained by the Corporation in the Trust until used for eligible education service
laward purposes.
~nlerest on Investments. Interest income is recognized when earned. Treasury notes and bonds pay
 interest semi-annually, based on the stated rate of interest. Interest on Treasury bills is paid at maturity.
 Interest income is adjusted by amortization of premiums and discounts using the effective interest
!method.
!Revenue jrom Services Provided The Corporation also receives income from reimbursable service
lagreements that is recorded as revenue from services provided. Revenue from services provided is
 ecognized when earned, i.e., goods have been delivered or services rendered.
Gifts and Donations. Revenue is recognized at the time gifts and donations are received and deposited in
he Treasury to the credit of the Gifts and Contributions Fund.
     T. RETIREMENT BENEFITS
Irhe Corporation's employees participate in either the Civil Service Retirement System (CSRS) or the
Federal Employees Retirement System (FERS). FERS was established by the enactment of Public Law
99-335. Pursuant to this law, FERS and Social Security automatically cover most employees hired after
December 31,1983. Employees hired prior to January 1, 1984, elected tojoin FERS and Social Security
or remained in the CSRS.
For employees covered by CSRS, the Corporation contributes 7.0 percent of their basic pay. For those
emp loyees covered by FERS, the Corporation contributes 11.2 percent of their gross pay towards
 etirement. Employees are allowed to participate in the Federal Thrift Savings Plan (TSP). For
employees under FERS, the Corporation contributes an automatic one percent of basic pay to TSP and
matches employee contributions up to an additional 4 percent of pay, for a maximum Corporation
contribution amounting to 5 percent of pay. Employees under CSRS may participate in the TSP, but will
not receive either the Corporation's automatic or matching contributions.
The Corporation made retirement contributions of $305 and $403 thousand to the CSRS, and $10.3 and
$9.6 million to FERS and TSP in fiscal years 2011 and 2010, respectively.


    U. INCOME TAXES
As a Federal entity, the Corporation is exempt from all income taxes imposed by any governing body,
Federal, State, commonwealth, local, or foreign government.


     V. USE OF ESTIMATES
Ifhe preparation of financial statements in accordance with GAAP requires the Corporation to make
~stimales and assumptions about future events. These estimates and assumptions affect the amounts
 .eported in the Corporation's fmancial statements and accompanying notes. The Corporation evaluates
it estimates and assumptions on an ongoing basis using historical experience and other factors that it
[believes to be reasonable under the circumstances. Adjustments to estimates and assumptions are made
IWhen facts and circumstances warrant. As future events and their effects cannot be determined with
!certainty, actual results could differ from the estimates used in preparing the accompanying financial
~tatemellts. Significant estimates and assumptions are required as part of determining the liability for
~ervice awards, grants payable, and grant advances.



    W. RECLASSIFICATIONS
~ertain prior year amounts have been reclassified to conform to current year presentation and better
reflect the Corporation's operations under its reauthorization. Specifically, a new program category,
Innovation, Demonstration and Assistance Activities was added, primarily to reflect the prominence of
 he Sociallnnovation Funds program. In addition, pass through grants have been allocated to the Senior
~orps program for which they are associated rather than reported separately and cost share revenue has
been reclassified from "Other" to "Revenue from Services Provided." The effects of the reclassifications
pn the FY 2010 Statement of Operations and Changes in Net Position are included in note 18.
         X CONCENTRATION OF RISKS
The Congress annually considers whether to fund the Corporation's program and operational
activit ies. Should the Congress opt not to enact appropriations to fund them, the Corporation would
be unable to continue operations. Corporation management believes the risk of such an occurrence
is remote. However, for fiscal 2011 Congress did not fund the Learn & Serve America program and
 he Corporation does not anticipate that additional funding will be enacted in the future. Grant
~ctivity previously funded under the Learn & Serve America program will continue through fiscal
~013.

Irhe Corporation also has established agreements with other Federal entities and contracts with
~ervice providers to help it administer key business processes. Should these agreements be
 erm in ated without ample time to replace them, the Corporation could experience significant
~ifficulty in fulfilling its statutory responsibilities. These agreements are as follows:

    o    National Finance Center ofthe U.S. Department of Agriculture for payroll services;

    o    U.S. General Service Administration for the lease of buildings and automobiles;

    o    U.S. Department of Health and Human Services for grants processing and reporting
         services;

    o    CGI Group, Inc. for the maintenance ofthe system platform supporting accounting and
         procurement; and

    o    SRA International, Inc. for information technology services.

Corporation management believes the risk of termination of these agreements is remote.
NOTE 2 - FUND BALANCE WITH TREASURY
U.S. Government cash is accounted for on an overall consolidated basis by the U.S. Department of
Treasury. The Fund Balance with Treasury line on the Statement of Financial Position consists of the
following:
•      Appropriated Funds - Appropriated funds are received through congressional appropriations to
       provide financing sources for the Corporation's programs on an annual, multi-year, and no-year
       basis.
•      Trust Funds - Trust funds are accounts designated by law for receipts earmarked for specific
       purposes and for the expenditure ofthese receipts. Funds from the National Service Trust may be
       expended for the purpose of providing an education award or student loan interest forbearance
       payment and are made directly to a qualified institution (college, university, or other approved
       educational institution, or a lending institution holding an existing student loan) as designated by the
       participant. The National Service Trust also pays awards under the President's Freedom
       Scholarship, Summer of Service, and Silver Scholar programs.
•      Gift Funds - Gift Funds are funds received from individuals and organizations as donations in
       furtherance of the purposes of national service laws.

                 Fund Balance witb Treasury as of September 30,2011
                                  (dullars In thousonds)

             Type                  Unrestricted            Restricted           Tofal
    Appropriated Funds            $      941,944      $                 -   $    941,944
    Trust Funds                                   -                361                  361
    Gift Funds                                    -                565                  565

Tofal                             5      941 z944 S                926 $         942z870




                 Fund Balance wlth Trea ury -as of September 30, 2010
                                  (dollan In thousands)

             Type                  Unrestricted            Restricted           Total
    Appropriated Funds            $      997,549      $                 -   $    997,549
    Trust Funds                                   -                241                  241
    Gift Funds                                    -                618                  6 18

Total                             S      9g7 z549 S                859 $         998.408
NOTE 2 - FUND BALANCE WITH TREASURY - CONTINUED

                              Unexpended Balances as of September 30, 2011
                                            (dollars in Ihousands)

                   Type                             Unrestricted              Restricted         Total
FBWT                                            $          941,944        $            926   $     942,870
Investments                                                           -           605 ,661         605,661

Total                                           $          941 2944       $       606,587    $   1,548,531



                          Status of Unexpended Balances as of September 30, 2011
                                            (dollars In Ihousands)

                   Type                             Unrestricted              Restricted         Total
Unobligated:
 Available                                      $           97,219        $         13,771   $     110,990
 Unavailable                                                     -                  50,197          50,197
Obligated not yet Disbursed                                844,725                542,619        1,387,344

Total                                           $          941,944        $       606z587    $   12548 z531




                              Unexpended Balances as of September 30, 2010
                                            (dollars In Ihousands)

                   Type                             Unrestricted              Restricted         Total
FBWT                                            $          997,549        $            859   $     998,408
Investments                                                           -           565,195          565,195

Total                                           $          9971549        $       566,054    $   1,563,603



                          Status of Unexpended Balances as of September 30,2010
                                            (dol/ars In II,ousands)

                   Type                             Unrestricted              Restricted         Total
Unobligated:
 Available                                      $           96,444        $         16,901   $     113,345
 Unavailable                                                     -                  50,197          50,197
Obligated not yet Disbursed                                901,105                498,956         1,400,061

Total                                           $          997,549        $       566 1054   $   1,563z603
NOTE 3 - NATIONAL SERVICE TRUST INVESTMENTS
AND RELATED RECEIVABLES
The composition of National Service Trust Investments and Related Receivables at September 30
is as follows:


                       Investments and Related Receivables as of September 30
                                               (dollars in thousands)

                                                                               2011             2010
Investments, Carrying Value                                             $         604,218   $      563,453
Investment and Interest Receivable                                                  1,443            1,742

Total                                                                   $         605,661   $      565,195


             Amortized Cost and Fair Value of Investment Securities
                           as of September 30, 2011
                                (dollars in thol/sands)

      Securities        Amortized Cost             Gains/(Losses)           Fair Value
Notes                   $         426,846      $             5,220      $         432,066
Bills                             177,372                        45               177,417

Total                  $          604,218 $                  5,265      $         609,483


             Amortized Cost and Fair Value of Investment Securities
                           as of September 30, 2010
                                (dollars ill thol/sands)

      Securities        Amortized Cost             Gains/(Losses)           FairValtie
Notes                  $          310,307 $                  4,736      $         315,043
Bills                             253,146                        52               253,198

Total                  $          563,453      $             4,788      $         568,241




At September 30, 2011, the notes held at year-end had an interest rate range of 0.375% to 4.875%
and an outstanding maturity period of approximately 31 days to 4 years. The bills held at yea r-
end had an interest rate range of 0.000% to 0.305% and were all due to mature within 159 days.
The par values of these bills range from $.70 million to $42.13 million. The fair value of the bills
and notes is based on bid and ask prices quoted by the Treasury as of September 30, 2011 and
2010.
Since fiscal 2003, the Corporation has set aside in reserve a portion of the funds in the National
Service Trust for use in the event that its estimates used to calculate obligational amounts for
education awards prove to be too low. This reserve was originally required by the Strengthen
AmeriCorps Program Act, and is now required by section 149(b) of the National and Communi
Service Act (42 U .S.c. 12606(b». As of September 30,2011, $50.197 million of the Corporation's
investment account has been set aside for this reserve.
NOTE 3 - TRUST INVESTMENTS AND RELATED RECEIVABLES-
CONTINUED

Investments held at September 30 mature according to the following schedule:


                                 Maturation of Securities Held as of September 30
                                                  (dollars In thousands)

                                                                     2011                                  2010
Held-to-Maturi!Y_Securities                               Cost                Fair Value        Cost              Fair Value
Due in I year or less                               $      323,876        $      324,250    $    332, 181     $       332,378
Due after I year up to 5 years                             280,342               285,233         231,272              235 ,863

Total                                               $      604 1218       $      6091483    $    563 1453     $       568 1241



NOTE 4 -ACCOUNTS RECEIVABLE, NET

                          Accounts Receivable as of September 30
                                        (dollars in thousands)

                                                    Appropriated
                                                       Funds               Trust Fund           Total
    2011
Accounts receivable                                 $            7, 168   $          653    $      7,821
Less: allowance for loss on receivables                           (204)              (10)           (214)

Accounts Receivable, Net                            $            6 1964   $          643    S      71607

    2010
Accounts receivable                                 $            4,357    $          214    $      4,571
Less: allowance for loss on receivables                           (788)                -            (788)

Accounts Receivable, Net                            $            3 1569   $          214    $      3 1783



NOTE 5 - PROPERTY AND EQUIPMENT, NET

               General Property and Equipment as of September 30, 2011
                                        (dollars In thousands)
                                   Service Life                   Accumulated     Net Book
        Major Class                  (Years)               Cost   Depreciation     Value
Equipment                             3 - 10        $       2,997 $    (2,071 ) $        926
ADP software                            2                        8,263            (8,263)                 -
Total                                               $       11,260        $      ~10,334) $             926
NOTE 5 - PROPERTY AND EQUIPMENT, NET - CONTINUED

                General Property and Equipment as of September 30,2010
                                       (dollan In thousands)
                       Service Life                            Accumulated
   Major Class           (Years)                   Cost        Depreciation   Net Book Value
Equipment                 3 - 10               $       2,997 $        (1,868) $        1,129
ADP software                 2                        8,263           (8,263)                   -
Total                                      $        ll z260    $     ~10zI31) $            I z129



                 Depreciation Expense for the period ending September 30
                                       (do//an in thousands)

   Major Class                                         2011                                 2010
Equipment                                  $           203                      $           206
ADP software                                               -                                375

Total                                      $           203                      $           581



NOTE 6 - TRUST SERVICE AWARD LIABILITY
Individuals who successfully complete terms of service in AmeriCorps programs earn education awards,
which can be used to make payments on qualified student loans or for educational expenses at qualified
educational institutions. The awards, which are available to use for a period of up to seven years after the
benefit has been earned, are paid from the National Service Trust. The National Service Trust also pays
forbearance interest on qualified student loans during the period members perform community service, as
well as awards under the Presidential Freedom Scholarship Program. The award liability components related
to education awards and interest forbearance have been adjusted, based on historical experience, to reflect
the fact that some eligible participants may not use these benefits. The Service Award was composed of the
following as of September 30:




                         Service Award Liability as of September 30
                                       (dollan in thousands)
                                                                   2011             2010
 Education awards                                              $   1,900,793    $   1,712,184
 Interest forbearance                                                 62,425           55,207
 President's Freedom Scholarship Program                              22,527           22,527
 Total estimated service award liability                           1,985,745        1,789,918
 Less: cumulative awards paid                                      1,575,484        1,410,040

Total                                                          $    410z261     $    379z878
NOTE 6 - TRUST SERVICE AWARD LIABILITY - CONTINUED
The net Service Award Liability as of September 30, 201 I increased by approximately $30.4 million from the
net Service Award Liability as of September 30, 2010. This change was largely due to the increase in the value
of an education award, new member enrollments and an increase in the number of members still serving during
the year. Past Corporation appropriations made amounts from the National Service Trust available for $1,000
scholarships for high school students known as Presidential Freedom Scholarships. To fund each scholarship, a
local community or corporate source matched the $500 portion of the scholarship provided by the Corporation.
The program was discontinued in fiscal 2007; however, because students have up to seven years to use the
scholarship, some payments will continue to be made over the next several years. As of October 1, 2009, the
National Service Trust is also available to pay Summer of Service and Silver Scholar educational awards.
However, the Silver Scholar program has not been funded so there is no current liability for those educational
awards. The Summer of Service program was only ftmded in FY 20 I O.




NOTE 7 - OPERATING LEASES
The Corporation leases office space through the General Services Administration (GSA). GSA charges the
Corporation a Standard Level Users Charge that approximates commercial rental rates for similar properties.
The NCCC also leases housing facilities for its campuses. Additionally, the Corporation leases motor vehicles
on an annual basis through GSA under an Interagency Fleet Management Service agreement for the NCCC. The
leases are renewable with no purchase or escalation clause. The following schedule presents future minimum
rental commitments under operating leases that have initial or remaining non-cancellable lease terms in excess of
one year as of September 30.



                            Estimated Operating Lease Commitments as of September 30
                                                      (dollars in thoU$and$)
                                 2011                                                             2010
   Year         Space        Vehioles         Other           Total            Space       Vehicles    Other        Total
   2011     $           -    $          - $           -   $           -   $      9,487     $    861    $    276    $ 10,624
   2012           9,694            641           307          10,642             9,781          820         266      10,867
   2013           9,994            548           285          10,827            10,083          852         261      11,196
   2014          10,303            570           285          11,158            10,395          885         264      11,544
   2015          10,621            593           276          11,490            10,717          919         266      11,902
   2016          10,950            617           265          11,832                   -           -           -            -
Total       $ 51,562_ $          2,969 $        1,418     $ 55,949        $ 50,463         $   4,337   $   1,333 $ 56,133



NOTE 8 - ACTUARIAL FECA LIABILITY
The Corporation's actuarial liability for future workers' compensation benefits under FECA was $9.092 and
$12.092 million as of September 30,2011 and 2010, respectively. The amount includes the expected liability
for death, disability, medical, and miscellaneous costs for approved compensation cases. As with all Federal
agencies the Corporation's FECA liability is determined by the Department of Labor. The actuarial liability is
determined using a method that utilizes historical benefit payment patterns related to a specific incurred period
to predict the ultimate payments related to that period. Consistent with past practice, these projected annual
benefit payments have been discounted to present value using the Office of Management and Budget's
economic assumptions for 10-year Treasury notes and bonds.
NOTE 9 - NET POSITION
Net position consists of unexpended appropriations and cumulative results of operations. Component
balances are separately maintained for the Gift Fund, Trust Fund and Appropriated Funds.


                      Net Position by Fund Balance Component as of September 30, 2011
                                                  (dollars in thousands)

                                                   Gift                   Trust              Appropriated            Total

 Unexpended appropriations                 $                   -   $                 -   $        876,088              876,088
 Cumulative results of operations                         591              196,404                  (3 ,864)           193,131

Total Net Position                         $              591      $       I 96z404      $        8721224 $          I z069 z21 9


                      Net Position by Fund Balance Component as of September 30,2010
                                                    (dollars in thousands)                                Restated

                                                   Gin                    Trust              Appropriated            Total
 Unexpended appropriations                 $                   - $                   -   $        935,080      $       935,080
Cumulative results of operations                          571              185,772                  (8,807)            177,536

Total Net Position                         $              571      $       I 85z772      $        926z273      $     I z112 z616


The Corporation is required to report information regarding its financial position according to three classes
of net assets (net position): unrestricted, temporarily restricted and pell11anently restricted. The Corporation
has no permanently restricted assets. The following table presents the Corporation's umestricted and
temporarily restricted net assets.


                   Restrictions on Net Position as of September 30,2011
                                      (dollars in thousands)

                                               Uorestrieted            Temporarily              Total

 Appropriated Funds                        $       872,224         $                 -   $        872,224
Trust Funds                                                    -           196,404                196,404
Gift Funds                                                     -                  591                    591

Total Net Position                         $       8721224         $       196z995       $      l z069,219


                   Restrictions on Net Position as of September 30, 2010
                                       (dollars in ,',ousands)                                Restated
                                               Uorestrieted            Temporarily              Total

Appropriated Funds                         $       926,273         $                 -   $        926,273
Trust Funds                                                    -           185,772                185,772
Gift Funds                                                     -                  571                    571

Total Net Position                         $       926 z273        $       186z343       $      l zl12,616
NOTE 10 -APPROPRIATIONS RECEIVED BY THE NATIONAL SERVICE
TRUST
For fiscal year 2011, the National Service Trust received $199.260 million under the Department of
Defense and Full-Year Continuing Appropriations Act, 2011 (Public Law 112-10). For fiscal year
2010, the National Service Trust received $197.000 million under the Consolidated Appropriations Act,
2010 (Public Law I 11-1 17). The acts also authorized the Corporation to transfer additional amounts
from subtitle C program funds to the National Service Trust to support the activities of national service
participants. The Corporation transferred $1.940 million and $2.659 million to the Trust under this
provision in fiscal year 2011 and 2010, respectively.

NOTE 11-EXPENSES
Using an appropriate cost accounting methodology, the Corporation's expenses have been allocated
among its major programs, at the sub-program level. Costs for each sub-program are reported on
separately:
AmeriCorps engages members in intense, impact-oriented service to address local community needs in
areas of education, healthy futures, environmental stewardship, economic opportunity, disaster services,
and assisting veterans and military families. AmeriCorps includes the State, National, Tribes, and
Territories (StatelNational); National Civilian Community Corps (NCCC); and Volunteers In Service To
America (VISTA) programs. The StatelNational sub-program includes grant expenses, as well as direct
and allocated personnel and administrative costs including AmeriCorps recruitment and National Service
Trust operations. The NCCC sub-program includes member stipend and benefits, and direct and
allocated personnel and administrative costs including AmeriCorps recruitment and National Service
Trust operations. The VISTA sub-program includes grant expenses, member stipend and benefits, as
well as direct and allocated personnel and administrative costs including AmeriCorps recruitment and
National Service Trust operations.
The National Senior Service Corps programs provide opportunities for members 55 and older to
address local community needs in the areas of education, assisting veterans and military families, disaster
response, and healthy futures. Senior Corps includes the Foster Grandparent Program (FGP); Senior
Companion Program (SCP); and the Retired and Senior Volunteer Program (RSVP). The NSSC
responsibility segment includes grant expenses, as well as direct and allocated personnel and
administrative costs for RSVP, FOP, and SCPo The Corporation also has reimbursable agreements with
several state agencies whereby the Corporation awards and administers grants to a list of grantees
selected and funded by the State (pass-through grants). The activity related to pass-through grants has
been reclassified to be associated with the related Senior Corps program.
Learn and Serve America includes grant expenses, as well as direct and allocated personnel and
administrative costs, for the Learn and Serve America Program, the President's Student Service
Challenge, and National Service Leader Schools. The Learn & Serve program was not funded in FY
2011; however, there will be on-going activity through FY 2013 as the program winds down.

The National Service Award Expense component consists ofthe Corporation's estimated expense for
education awards based on the increase in its service award liability during the year and interest
forbearance costs on qualified student loans during the period members perform community service. No
indirect costs have been allocated to the National Service A ward expense component.
Innovation, Demonstration, & Assistance Activities (ID&A Activities) include grants to support and
encourage new forms of service and volunteering. The most significant program is the Social Innovation
Fund (SIF). The primary objective of the SIF is to improve the lives of people in low-income
communities by mobilizing public and private resources to grow innovative nonprofit organizations that
have evidence of compelling impact in the areas of economic opportunity, youth development, and
healthy futures. No indirect costs have been allocated to the Innovation, Demonstration, & Assistance
Activities component.
The Office of Inspector General (OIG) receives a separate appropriation. No indirect costs have been
allocated to oro.
NOTE 11 - EXPENSES - CONTINUED

               Components of Grant Funds Expended for the period ended September 30
                                                   (dQ1I41'S hI   thousands,               Restated

                                                            2011                             2010
Domestic Volunteer Service Act Programs                            $    249,235                  $    241,732
National and Community Service Act Programs                             434,821                       401,622

Total Grant Funds Expended                                         $    684,056                  $    643,354



          Expenses by Majo.r Responsibility Segment for the period ended September 30
                                                   (dollars III tl,o,lSm,dS)               Reatared

                                                            20U                              2010
AmeriCorps:
  State/National                             $     633,975                         $   598,513
  NCCC                                              35,826                              42,723
  VISTA                                            138,159                             167,426
    Subtotal                                                       $    807,960                  $    808,662
National Senior Service Corps:
  Retired and Senior Volunteer Program               67,130                             65,509
  Foster Grandparent Program                       118,900                             120,738
  Senior Companion Program                  $       51,318                         $    49,567
     Subtotal                                                           237,348                       235,814
Learn and Serve America                                                   33,261                       37,539
Innovation, Demonstration, Assistance Activities                          11,464                       17,888
Office of Inspector General (OIG)                                          8,001                        7,292

Total Expenses                                                     $ 1..098,OM                   $ 1,107,195
                                                                    ~ by~ aod SUbllrogram ror the prriOd eaded-Se9"I!cr~ ZOll




                                                                                                                                                                                           ---
                                                                                                        (M.u,/It~                                            .



Grant and Related Expense
Grant funds expended
                              ~
                                                             .-
                                                             $     396,174
                                                                                A__




                                                                                S
                                                                                        '~




                                                                                    m;(f!'



                                                                                              -   S
                                                                                                      YIStA

                                                                                                        36,465      S
                                                                                                                        J/SVP


                                                                                                                          59,244
                                                                                                                                 S ' " SoaIO'r ·S mite "'!!l!!


                                                                                                                                        $
                                                                                                                                             [(:p


                                                                                                                                             107,643     $
                                                                                                                                                                 .$a'

                                                                                                                                                                  45,883
                                                                                                                                                                            a-.a:s..-.

                                                                                                                                                                            $    27,563    $   11,084    $
                                                                                                                                                                                                             Ole


                                                                                                                                                                                                                         S
                                                                                                                                                                                                                              ToIoI

                                                                                                                                                                                                                              684.0%
VISTA & NCCC stipends & benefits                                                       8, 137           57,363                                                                                                                 65,500
Service award expense                                              173,300             4.339            17.601                                                                      577                                       195.817
Total Grant and Related Expense                                    569,474            12A76            111,429            59,244             107,643              45,883         28,140        11,084                         945,373

Administrative Expense
Federal employee salaries & benefits                                31,974             9,664             7,491             2.754                5,03 1             2,147          2,794                         4,887           66,742
Travel & transportation                                              1,166             3,516             1,584               5'OS                 887                387             85                           3 18           8,448
Rent, communications, & utilities                                    4,548             3,616               948               407                  745                318            182                           403           11 ,.167
Prograni analysis & evaluation                                       1,735               449               629                   266              479                206            382                                          4,146
Printing & reproduction                                                164                91                 81              107                    3S                60              7                                               545
Other services and expenses                                         24,511             4,759            15,862             3,810                4,012              2,288          1,647           380           2,209           59,478
Supplies & materials                                                   407             1,255               136                37                    68                29             24                           184            2,140
Depreciation, amortization & loss on disposition of assets             129                   2               20               13                    24                10              6                                            204
Bad debt                                                              (133)               (2)               (21)                 (13)             (24)               (10)            (6)                                          (09)
Total Administrati.·c E. ncnse                                      6<1.501           23,350            26,730             7.886               11,257              5.435          5.12 1          380           8.001          152.661 :
Toaol   Ex~'by 1)rpr                                         S     633.915      S     35,826      S    lJ8.. IS'    $     6'7.»0        $    U8.000      S        51,318    S   3J.2~1     $   11 1464   S      !zOO}    $   l.o9S;OJif


                                                                    ~~          by Typr .~ SubprograllL for the ~riOd ~ded ~laIIber30, 2010
                                                                                                        (1I<IIII!D,r.llto/l~




Gran. and Related Expense
Grant funds expended
                           RC\iltll1ed
                              b ..



VISTA & NCCC stipends & benefits
                                                             S
                                                                 s.--....
                                                                   352,356
                                                                            -
                                                                                .\.-iCa



                                                                                S
                                                                                   Nett;:



                                                                                       7,630
                                                                                              -   S
                                                                                                      VtsJ"A


                                                                                                        27,636
                                                                                                        94,224
                                                                                                                    $
                                                                                                                        \I$VI'


                                                                                                                          58,906
                                                                                                                                 NiII600aI s..Ior s.rm..,~




                                                                                                                                    -
                                                                                                                                        $
                                                                                                                                               f't:t,

                                                                                                                                             110,326
                                                                                                                                                     -
                                                                                                                                                         $
                                                                                                                                                                 ~


                                                                                                                                                                  44,864
                                                                                                                                                                        -
                                                                                                                                                                            &.0.00 _ _..



                                                                                                                                                                            $    31,412
                                                                                                                                                                                       -
                                                                                                                                                                                           --
                                                                                                                                                                                           $   17,854
                                                                                                                                                                                                     -
                                                                                                                                                                                                         $
                                                                                                                                                                                                             CIte:


                                                                                                                                                                                                                     -
                                                                                                                                                                                                                     -
                                                                                                                                                                                                                         S
                                                                                                                                                                                                                              T_

                                                                                                                                                                                                                              643,;154
                                                                                                                                                                                                                              101,854
Service award expense                                              190,499             4,685            22.209                      -                                   -           374              -               -        217,767
Total Grant and Related Expense                                    542,855            12,3 15          144,069            58,906             110,326              44,864         31,786        17,854                -        ~62.97 5

Administrative Expense
Federal enrployee salaries & benefits                               33,360            10,554             6,690             2,743                5,211               2,165         3,475              -          4,053           68,25 1
Travel & transportation                                              1,115             3, 186            3 ,225              787                1,439                 621           108              -            197           lO,67S
Rent, communications, & utilities                                    4,527             6,2~8             1,0 11              406                  773                 321           263              -            383           13,922
PrOgrani analysis & evaluation                                         927               797                797              252                  466                 195           584              -               -           4,0 18
Printing & reproduction                                                131               101                 65               28                   35                  14            11              -              1                 386
Other services and expenses                                         14,920             7,630            11,437             2,321                2,362               1,335         1,266            34           2,580           43,885
Supplies & materials                                                  262              1,879                   71             25                   46                  19            18              -             78            2,398
Depreciation, amortization & loss on disposition of assets             35'.                  20             52                35                   68                  28            24              -               -             58 1
Bad debt                                                                62                 3                 9                 6                   12                   5             4              -               -             101
T otal Administra tive Exocnse                                      55,658            30,408            23,357             6,603               10.412               4.?03         5,153            34           7.292          144,220
                 -
Total E~ by 'rypr                                            5     S9~1J        S     42:'123     5    .6.'.G6      $     6S,509        s    12° 1'3$    S        49.567    S    37e!9     $   11z!!!    S      '~91.    S 1116'1195
NOTE 12-NATIONALSERVICEAWARDEXPENSE
Members serving in approved national service positions are eligible to earn a service award to pay for
qualified education expenses. The National Service Trust also pays interest forbearance costs on
qualified student loans during the period members perform community service. The Corporation
estimates the expense for national service awards based on the increase in its cumulative service award
liability during the year (see Note 6). The total service award liability as of September 30, 2011 and
2010, respectively, has been adjusted to reflect the fact that earned awards are not always used.


                     atlonal Service Award E pense for the period ended September 30
                                             (dollars In tholUands)

                                                                          2011                2010
Estimated education awards                                            $     188,599       $     210,769
Estimated interest forbearance                                                   7,2 18           6,998

National ervice Award E pense                                         $     195z817       S      217z767




NOTE 13 - CHANGE IN UNEXPENDED APPROPRIATIONS, NET

                             ne:l'pended Appropriations, et as of September 30
                                           (dollilrs ln thousands)                            R~tated


                                                                          2011                 2010
Unexpended Appropriations, Beginning Balance                          $     935,080       $      890,956

Increases:
Appropriations Received, Net of Trust                                     1,077,733            1,149,72 1


Decreases:
Appropriated Capital Used                                                  (883,872)            (876 568)
Appropriations Transferred to Trust Fund (net ofrecissions)                ( 199260)            ( 197,000)
Program Funds Transferred to Trust                                           ( 1,940)             (2,659)
Recissions and Cancellations                                                {51 ,653 )           (29.3 70)
Total Decreases                                                           (1,136,725)         ( 1, 105 ,597)

Change in Unexpended Appropriations                                         (5 8 992)             44,124


Unexpended Appropriations, Endl,g Balance                             $     876z088       S      935.080
NOTE 14 - CONTINGENCIES
The Corporation is a party to various routine administrative proceedings, legal actions, and claims brought by
or against it, including threatened or pending litigation involving labor relations claims, some of which may
ultimately result in settlements or decisions against the Corporation. In the opinion of the Corporation's
management and legal counsel, there are no proceedings, actions, or claims outstanding or threatened that
would materially impact the financial statements of the Corporation.
Certain legal matters to which the Corporation is a party may be administered and, in some instances, litigated
and paid by other Federal agencies. Generally, amounts paid in excess of $2.5 thousand for Federal Tort
Claims Act settlements or awards pertaining to these litigations are funded from the Treasury Judgment Fund
(TJF). Although the ultimate disposition of any potential TJF proceedings cannot be determined, management
does not expect that any liability or expense that might ensue would be material to the Corporation's financial
statements.


NOTE 15-SUBSEQUENTEVENTS
The Corporation has evaluated subsequent ~vents through November 15, 2011, which is the date these
financial statements were available to be issued. As a consequence of its evaluation, the Corporation has
determined that no subsequent events need to be recognized or disclosed.


NOTE 16 - UNDELIVERED ORDERS AT FISCAL YEAR-END
The Corporation's undelivered orders at September 30,2011 and 2010 were $921,674 and $791,757 thousand,
respectively.


NOTE 17 - APPORTIONMENT CATEGORIES OF INCURRED OBLIGATIONS
An apportionment is a distribution by OMB of amounts available for obligation. OMB apportions
Corporation funds on both a quarterly and annual basis. Obligations incurred during FY 2011 and 2010 were:


                         Consolidated Obligations Incurred tbrougb September 30
                                              (dollars In thousands)

                      Fiscal Year                                 DJrect           Reimbursable        Total

  2011                                                      $          1,288,240   $      11,081   $   1,299,321


  2010                                                      $          1,403,065   $      10,459   $   1,413,524
NOTE 18-RESTATEMENTS
CNCS restated its audited FY 2010 Consolidated Statements of Financial Position, Operations and Changes
in Net Position, and Cash Flows to correct an overstatement ofits estimated accrued grant expense. The
restatements had no effect on the FY 2010 Combined Statement of Budgetary Resources.
The cause of the restatements was an erroneous calculation of estimated accrued grant expense prepared by
the Department of Health and Human Services' Payment Management Division (HHS). Under an
interagency agreement between CNCS and HHS, HHS manages CNCS' grant payment activity and related
Treasury reporting. Each quarter HHS provides CNCS with a grant accrual estimate to account for
expenses not yet reported to HHS by CNCS' grantees. At the end ofthe subsequent quarter, HHS provides
the actual grant expense (to replace the previous estimate) and provides a new quarterly estimate. The
estimate for the final quarter is used in CNCS' annual financial statements to report the accrued cost of its
grant programs at the close ofthe fiscal year. CNCS uses detailed transaction activity provided by HHS
through an electronic interface to reflect actual grant activity on a daily basis for operational and program
monitoring purposes.

HHS bases its estimate on historical cash drawdown and expense data. To provide CNCS with assurance
that this data is reliable, HHS' Office ofInspector General (OIG) conducts a SAS 70 1 audit ofHHS'
operations and provides the results to CNCS on an annual basis. HHS OIG's FY 2010 audit report
disclosed no issue with the grant expense accrual process used by HHS and' therefore could be relied on by
CNCS when assessing the estimate for FY 2010.

In preparing the FY 2010 year-end financial statements, the adjustment provided by HHS was reviewed by
CNCS and deemed to be a reasonable estimate. An increase in the end of year quarterly grant accrual
estimate was expected because ofa higher grant budget for the year (CNCS' FY 2010 budget increased by
$229.9 million over FY 2009) and the effects of Recovery Act activity (CNCS received $200 million in FY
2009/ FY 2010 Recovery Act funds). However, in January 2011 while reviewing the grant accrual
estimate for the first quarter of2011 CNCS noted that the estimate remained unexpectedly high.
Corporation accounting staff contacted HHS to inquire about the high estimate. In June HHS
acknowledged that its estimate was incorrect (because ofa computational error). In July, HHS revised its
grant expense estimate when it provided the data for the quarter ended June 30, 2011. During its year-end
financial audit process the Corporation determined that because the effect was material to the FY 2010
financial statements the revised HHS estimate should be treated as a correction of an error rather than a
change in estimate. While the effect ofthis change on the Net of Revenue over Expenses on the Statement
of Operations is zero, the adjustment has a material effect on several line items. As a result the Corporation
has restated its FY 2010 Consolidated Statements of Financial Position, Operations and Changes in Net
Position, and Cash Flows, and the related footnotes as shown below.



                    Consolidated Statement of Financial Position as of September 30, 2010
                                                     (dollal'S in tl,ousands)

                                                                           Previously
                    Fb\anclal Statement Line Item                          Reportid              Restatements          Restated
Advances to Others                                                     $            32,164   $          50,476     $        82,640
Total Assets                                                                    1,600,679               50,476            1,651,155
Grants Payable                                                                     252,892             (127,214)           125,678
Total Liabilities                                                                  665,753             (127,214)           538,539
Net Position                                                                       934,926             177,690            1,112,616
Total Liabilities and Net Position                                              1,600,679               50,476            1,651,155




IOn June 15, 2011; Statement on Standards for Attestation Engagements No. 16 (SSAE 16) effectively replaced
the SAS-70 as the authoritative guidance for reporting on service organizations.
NOTE 18 -RESTATEMENTS - CONTINUED
The table below also shows the effects of certain reclassifications to the FY 2010 statements to break out
Innovation Demonstration and Assistance Activities and to allocate pass-tluu grants to the Senior Corps
program for which they are associated.



                         Consolidated Statement of Operations and Changes In Nef Position
                                     for the Period ended September 30.101Q
                                                 (donors In liro/l$andl)

                                                                    PrevII)usb'
                   Pln.ntla' SIIII"".nl Line Item                   Qeported          Reslll~1I11       Rld~            Rl!SlIIled

Revenue - Appropriated Capital Used                             $      1,054.258          (177,690) $          -    $       876,568
Revenue from Services Provided                                             2,486                          8,788              11,274
Other Revenue                                                              9,778                          (8,788)                990
Total Revenue                                                          1.273,469          (177,690)                       1,095,779


Expenses - AmeriCorps                                                   943,938           (123 ,625)     (11,651)           808,662

Expenses - SeniorCorps                                                  280,157            (38,920)       (5,423)           235,814
Expenses - Learn & Serve America                                          53,316           (15,145)        (632)             37,539
Expenses - Innovation, Demonstration and Assistance                                                      17,888               17,888
Expense - Pass Thru Grants                                                     182                         (182)
Total Expense                                                          1,284,885          (177,690)                      1,107,195


Net of Revenue Over Expense                                              (11,416)                                           (11 ,4 16)


Increase(Decrease) In Unexpended Appropriations Net                    {I 33,566)          177,690                           44,124
Increase (Decrease) in Net Position                                    (144,982)           177,690                           32,708
Net Position Ending Balance                                             934,926            177,690                        1.112,6 16




                Consolidated Statement of CaSh Flows for tt,e Period ended September 30, 1010
                                                      (dolfnn In thouwantls)

                                                                    Previous!):
                Finanelal Statement Line Item                       Reported          Restatements                      Restated
Appropriated Capital Used                                       $     (1,054,258) $        177,690                  $      (876,568)
Decrease (Increase) in Advances to Others                                 35,357           (50,476)                         (15,119)
Increase (Decrease) in Grants Payable                                    147,808          (127,2 14)                         20,594
                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




                            REPORT ON INTERNAL CONTROL

To the Board of Directors and Inspector General of the Corporation for National and Community
Service


We have audited the consolidated financial statements of the Corporation for National and
Community Service (the Corporation) as of and for the year ended September 30, 2011, and have
issued our report dated November 15, 2011. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements, as amended. The management of the
Corporation is responsible for establishing, maintaining, and assessing internal control to provide
reasonable assurance that the broad control objectives of the Federal Managers’ Financial
Integrity Act of 1982 (FMFIA) are met.

In planning and performing our work, we considered the Corporation’s internal control over
financial reporting and compliance by obtaining an understanding of the design effectiveness of
the Corporation’s internal control, determining whether controls had been placed in operation,
assessing control risk, and performing tests of the Corporation’s controls as a basis for designing
our auditing procedures for the purpose of expressing our opinion on the financial statements and
not to provide an opinion on the internal controls. Accordingly, we do not express an opinion on
the effectiveness of the Corporation’s internal control over financial reporting and compliance or
on management’s assertion on internal control included in Management’s Discussion and
Analysis.

We limited our internal control testing to those controls necessary to achieve the OMB Bulletin
No. 07-04, as amended, control objectives that provide reasonable, but not absolute assurance,
that: (1) transactions are properly recorded, processed, and summarized to permit the preparation
of the financial statements in accordance with accounting principles generally accepted in the
United States of America (GAAP), and assets are safeguarded against loss from unauthorized
acquisition, use, or disposition; and (2) transactions are executed in compliance with laws
governing the use of budget authority, Government-wide policies and laws identified in
Appendix E of OMB Bulletin No. 07-04, as amended, and other laws and regulations that could
have a direct and material effect on the financial statements. We did not test all internal controls
relevant to operating objectives, as broadly defined by the FMFIA, such as those controls
relevant to ensuring efficient operations.

Our consideration of internal control over financial reporting was for the limited purpose
described in the preceding paragraphs and was not designed to identify all deficiencies in internal
control that might be significant deficiencies or material weaknesses; therefore, there can be no
assurance that all deficiencies, significant deficiencies, or material weaknesses have been
identified. However, as discussed below, we identified one deficiency in internal control that we
consider to be a material weakness.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented
or detected and corrected on a timely basis.

We consider the following deficiency in the Corporation’s internal control to be a material
weakness.

                                       Material Weakness

Grant Accrual Estimate

The Corporation did not have adequate internal controls in place to ensure that the grant accrual
was reasonably estimated. The Corporation uses the Department of Health and Human Services’
(HHS) Payment Management System to provide grant funds to grantees under a contractual
arrangement. The Corporation receives the actual quarter’s advances on the HHS Grant Accrual
Spreadsheet Report and uses this amount to record accrued grant expenses at the end of each
quarter. In fiscal year (FY) 2011, a mathematical error was identified in the HHS Grant Accrual
Spreadsheet Reports that affected the December 2009 through March 2011 balances, which were
used to estimate the grant accrual amount. The error originated at HHS and was subsequently
transmitted to the Corporation in the HHS Grant Accrual Spreadsheet Reports.

The Corporation’s management review procedures did not identify this error prior to the issuance
of the FY 2010 financial statements. As a result of the error, Total Expenses were overstated by
$177.7 million and Net Position was understated by $177.7 million; and Grants Payable and
Advances to Others were overstated and understated by $127.2 million and $50.5 million,
respectively, in the Corporation’s FY 2010 financial statements.

Note 18, Restatements, to the FY 2011 financial statements discloses the full effect of the
restatement on the Corporation’s FY 2010 consolidated statement of financial position,
consolidated statement of operations and changes in net position, and consolidated statement of
cash flows.

During the audit, we noted other matters involving internal control and its operations over
financial reporting, which will be reported to the Corporation’s management in a separate letter.
                                   STATUS OF PRIOR YEAR FINDINGS

We noted issues related to the Corporation’s internal control over financial reporting, which we
included in the Report on Internal Control included in the audit report on the Corporation’s FY
2010 financial statements1. The table below summarizes the current year status of these issues.

                           Prior Year Significant Internal Control Deficiencies

             Control Deficiency                        FY 2010 Status             FY 2011 Status
          Information Technology                    Significant Deficiency       Management Letter
        Fund Balance with Treasury                  Significant Deficiency            Closed


                       *       *        *       *       *        *    *      *      *

This report is intended solely for the information and use of the Corporation’s management,
those charged with governance and others within the Corporation, the Corporation’s Office of
Inspector General, the Government Accountability Office, OMB, the U.S. Department of the
Treasury, and Congress, and is not intended to be and should not be used by anyone other than
these specified parties.




Alexandria, Virginia
November 15, 2011




    Independent Auditor’s Report on Internal Control, November 2010
1
                                                           1701 Duke Street, Suite 500, Alexandria, VA 22314
                                                           PH: 703.931.5600, FX: 703.931.3655, www.kearneyco.com




                 REPORT ON COMPLIANCE AND OTHER MATTERS

To the Board of Directors and Inspector General of the Corporation for National and Community
Service


We have audited the consolidated financial statements of the Corporation for National and
Community Service (the Corporation) as of and for the year ended September 30, 2011, and
have issued our report dated November 15, 2011. We conducted our audit in accordance with
auditing standards generally accepted in the United States of America; the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-
04, Audit Requirements for Federal Financial Statements, as amended. The management of the
Corporation is responsible for compliance with laws and regulations.

As part of obtaining reasonable assurance about whether the Corporation’s financial
statements are free of material misstatement, we performed tests of the Corporation’s
compliance with certain provisions of laws and regulations, noncompliance with which could
have a direct and material effect on the determination of financial statement amounts, and
certain other laws and regulations specified in OMB Bulletin No. 07-04, as amended. We
limited our tests of compliance to these provisions; and we did not test compliance with all
laws and regulations applicable to the Corporation. Providing an opinion on compliance with
those provisions was not an objective of our audit and accordingly, we do not express such an
opinion.

The results of our tests of compliance described in the preceding paragraph disclosed no
instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards and OMB Bulletin No. 07-04, as amended.

                  *      *       *      *       *      *          *         *         *
This report is intended solely for the information and use of the Corporation’s management,
those charged with governance and others within the Corporation, the Corporation’s Office of
Inspector General, the Government Accountability Office, OMB, the U.S. Department of the
Treasury, and Congress, and is not intended to be and should not be used by anyone other than
these specified parties.




Alexandria, Virginia
November 15, 2011
                      APPENDIX
______________________________________________________
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE’S
             RESPONSE TO DRAFT REPORT
                                     NATIOONAL&
                                     COMMUNITY
                                     SERVICE ........,...

MEMORANDUM

DATE:          November 14,2011


TO:            Robert Walters, Assistant Inspector General


FROM:          William Anderson, Chief Financial Officer        W ~ ~<S"';
SUBJECT:       Draft Report on the Corporation's FY 2011 Financial Statements


       Thank you for the opportunity to respond to the draft report on the results of your audit of
the Corporation for National and Community Service's FY 2011 financial statements. I am
pleased that we can report that in FY 2011 CNCS maintained its record of strong fiscal
stewardship for the American people. The Corporation received an unqualified "clean" opinion
on its consolidated financial statements for the twelfth consecutive year. The audit also found no
instance of noncompliance with laws and regulations.

       I am also pleased that the two significant deficiencies in internal control contained in the
FY 2010 report have been corrected. However, a new material weakness in financial reporting
related to the restatement of the CNCS' FY 2010 financial statements was included this year.
As noted in the Annual Financial Report, the Corporation disagrees that this was a material
weakness in FY 2011 but will reduce its reliance on service provider audit reports as an internal
control and has implemented enhanced review procedures to prevent a reoccurrence of the issue.
Overall, I believe these results reflect CNCS' commitment to sound financial management and
the hard work by staff over the past year to continuously improve financial operations.




                            1201 New York Avenue; NW· Washington, DC 20525
                                   202-606-5000 • www.nationalservice.org
                            Senior Corps· AmeriCorps • Learn and Serve America
